                         INDEPENDENT ACCOUNTANT'S

                 REPORT ON THE PERFORMANCE AUDIT OF

                          COST SHARING PROVIDED BY

                      CORNELL UNIVERSITY ON AWARDS

                      DBI-9512240, ESI-9627280, ECS-9512186,

                          DBI-9512501, AND ECS-9871026




This audit was performed by:
Cotton & Company LLP
Certified Public Accountants
Alexandria, Virginia
National Science Foundation
4201 Wilson Boulevard
Suite 1135
Arlington, Virginia 22230


        This audit report addresses cost sharing on five National Science Foundation (NSF)
awards at Cornell University from 1995 through 2001. The awards provided funds for
equipment (spectrometers and nanofabrication) on four projects and for research and
education about bird breeding on another project, which generated program income. NSF
requires some award recipients to contribute funds in the form of cost sharing on awards with
infrastructure-building benefits such as equipment; and thus it required cost sharing for the
awards funding spectrometers and nanofabrication equipment. NSF also requires cost
sharing on awards where there is a clear potential to generate income, and thus it required
cost sharing on the ornithology award. The total value of the five awards was $4.2 million,
and the total amount of required cost sharing was $3.8 million. As of the date of completion
of our fieldwork, two of these five awards were still open.

According to NSF records, it has funded over 1,000 awards at Cornell from 1995 through
2001, representing an investment of $612.8 million. On 174 of these awards, NSF records
indicate that Cornell has promised $30.6 million of cost sharing.' Thus the $3.8 million of
cost sharing required on the five awards included in our audit represents approximately 12
percent of the total cost sharing Cornell promised on the NSF awards it received during this
time frame.




                                        established 1981




                                               1
	




        OBJECTIVES, SCOPE, AND METHODOLOGY

           NSF's Office of Inspector General (OIG) requested Cotton & Company LLP to
    conduct a performance audit of cost sharing provided by Cornell under the following
    awards: ECS-9512186, DBI-9512240, DBI-9512501, ESI-9627280, and ECS-9871026.
    The primary audit objectives were to:

        1.       Determine if Cornell met cost-sharing requirements and if the costs claimed are
                 allowable, reasonable, allocable, and in compliance with applicable Office of
                 Management and Budget (OMB) circulars, NSF requirements, and the award
                 agreements.

    2.           Evaluate the adequacy of Cornell's internal controls to monitor cost sharing
                 throughout the award period, including the annual certification process, and
                 determine if Cornell's Authorized Organizational Representative certified the
                 cost-sharing amount.

    3.           Evaluate the adequacy of internal controls over recording revenue and expenses
                 for cost sharing to ensure that items are verifiable, reasonable, and allowable, and
                 determine if Cornell's financial system accurately monitors revenue and costs for
                 individual awards.

    4.           Evaluate internal controls associated with the valuation of in-kind contributions to
                 ensure that they are allowable, allocable, and reasonable, and determine if Cornell
                 has properly valued, recorded, and reported in-kind contributions.

           We conducted fieldwork in December 2000, and January, February, and May
    2001 at Cornell's campus in Ithaca, New York. Except for the matter described below
    regarding management representations, the audit was conducted in accordance with the
    General Accounting Office's (GAO) Government Auditing Standards, issued June 1994,
    applicable to performance audits. The scope of our audit included cost sharing under the
    five aforementioned awards, with effective dates from August 15, 1995 through
    August 31, 2001. To accomplish our objectives we reviewed Cornell's records and
    supporting documentation and interviewed personnel involved in managing and
    accounting for the awards.

           We asked both Cornell's                        and its
                for written confirmation of the representations made to us during the audit.
    Despite our request, Cornell has not provided the requested management representations,
    which we consider to be a scope limitation under Government Auditing Standards on our



    1
         The text of the representations we asked Cornell to confirm is included as Appendix B to this report.




                                                             2
forming an opinion regarding whether cost sharing is verifiable, reasonable, and
allowable. 2

AUDIT RESULTS

        Cornell did not have an adequate internal control structure for managing,
accounting, and reporting on its cost-sharing obligations. Cornell's departments, which
set up their own cost-share accounting systems, did not always tie cost sharing to the
specific NSF awards on which the cost sharing was claimed. Compounding this problem,
departments tracked cost sharing in multiple accounts, some of which commingled both
cost-sharing expenses and other expenses unrelated to the NSF projects. In addition,
Cornell did not monitor subrecipients' cost sharing, which resulted in inadequate
documentation to support the existence of, or the valuation for, claimed cost sharing.

       As a result of these inadequacies in Cornell's accounting for cost sharing and
Cornell's refusal to provide the requested management representations, we were unable to
conclude whether or not the $3.8 million cost sharing Cornell claimed on the five awards
was allowable, reasonable, and allocable under federal requirements. More generally, the
inadequacies in Cornell's cost-share accounting increase the risk that Cornell may not be
adequately accounting for a total of more than $30 million of cost sharing promised on
other NSF awards funded concurrently with the five audited awards.

        Although Cornell's decentralized departmental system made it more difficult to
track cost sharing, the primary systemic weakness was Cornell's lack of oversight over
departmental and subrecipient accounting for cost sharing. Cornell did not monitor all
reported cost-sharing expenses to ensure that amounts claimed were reasonable,
allowable, allocable and in compliance with federal and NSF requirements. Additionally,
Cornell did not appear to place a sufficient level of priority on cost-sharing compliance.
For example, Cornell officials told us that it would be too costly to set up a system to
track cost sharing by means of a separate cost-sharing account on each award. They also
told us that for monitoring subrecipient cost sharing they relied on "integrity-based
systems," which they thought were adequate. Although Cornell was aware of problems
related to its cost-share accounting based on prior audits, the fact that the system is not
adequate indicates that Cornell did not take effective corrective action based on those
previous audit findings.

        Additionally, until our audit, Cornell had not submitted the annual cost-sharing
reports with the required certification to NSF, where the required cost sharing was
$500,000 or more. As a result of Cornell's inadequate cost-sharing reporting, NSF has
less assurance that Cornell met its cost-sharing requirements and that its claimed cost

2
    Section 6.55 of Government Auditing Standards states:
          Auditors may find it useful to obtain from officials of the auditee written
          representations concerning the competence of the evidence they obtain. Written
          representations ordinarily confirm oral representations given to auditors, indicate and
           document the continuing appropriateness of such representations, and reduce the
          possibility of misunderstanding concerning the matters that are the subject of the
          representations.


                                                       3
sharing is allowable. Cornell did not submit cost-sharing reports, or submitted them late,
because it did not adequately monitor the departments that tracked the cost-sharing data
to ensure that they had provided the required information. Cornell did not adequately
certify cost-sharing reports that were filed, because it thought "signing" and "certifying"
were synonymous.

        We recommend that the Directors of NSF's Divisions of Grants and Agreements
(DGA) and Contracts and Policy Oversight (CPO) ensure by follow-up review that
Cornell establishes a system to link cost sharing to project accounts for each NSF award,
through separate accounts or through other equivalent means, and improves its
monitoring, certifying, and reporting of cost sharing at the departmental and subrecipient
levels. We also recommend that the Directors ensure that Cornell's Authorized
Organizational Representative (AOR) certifies annually the cost sharing for all awards
requiring $500,000 or more of mandatory cost sharing.

        In its response to our audit draft, Cornell acknowledged that its cost-share
accounting system had flaws, but thought the report overstated the seriousness of that
finding. 3 However, Cornell agreed to add a data code to the cost-sharing accounts to
identify the associated NSF award account, and said that it has modified its procedures
for monitoring subrecipients' cost sharing. On the basis of Cornell's responses, we have
clarified our report and recommendations. 4 Specifically, we acknowledge that Cornell
can use multiple accounts for cost sharing; but these accounts must be linked to the NSF
award that is benefiting from the claimed cost sharing. Also, we acknowledge that
Cornell does not need to maintain documentation of subrecipients' cost sharing; but it
does need to ensure that the subrecipients have reliable processes for compliance with
federal and NSF cost-sharing requirements.

CORNELL'S ACCOUNTING FOR COST SHARING NEEDS IMPROVEMENT

        OMB Circular A-110, Uniform Administrative Requirements for Grants and
Agreements with Institutions of Higher Education, Hospitals, and Other Non-profit
Organizations, requires that recipients of federal funding have financial management
systems that provide "[a]ccurate, current and complete disclosure of the financial results
of each federally-sponsored project ... " and "[e]ffective control over and accountability
for all funds . . . ." With regard to cost sharing specifically, the circular requires that
cost-sharing amounts must be "verifiable from the recipient's records" and "allowable
under the applicable cost principles."       OMB Circular A-21, Cost Principles for
Educational Institutions, provides criteria for determining allowable compensation for
personal services. The circular states that the payroll system will "be incorporated into
the official records of the institution," and that the payroll-system method "must
recognize the principle of after-the-fact confirmation or determination so that costs
distributed represent actual costs," and must allow "confirmation of activity allocable to
each sponsored agreement . . ." We believe that the most effective way to ensure
3
    We include the verbatim text of Cornell's response to the audit draft in Appendix D.

4
 In addition, a summary of our reply to Cornell's general comments about the audit report appear in
Appendix E.


                                                       4
compliance with federal requirements and to ensure the integrity of claimed cost sharing
is to establish a financial accounting system that tracks in separate accounts the cost-
sharing expenditures for each NSF award. Separate accounts help ensure that amounts
are verifiable from source records and are applicable to the NSF project.

        However, in accounting for cost sharing on the NSF awards audited, Cornell did
not establish separate accounts for cost-sharing expenses to track cost sharing claimed by
Cornell, nor did it monitor cost sharing claimed by its subrecipients. Specifically,
Cornell's departments did not tie claimed cost sharing to specific NSF awards; and
further increasing the difficulty of tracing cost sharing, departments used multiple
accounts for various projects to track cost sharing and sometimes commingled in the
same account both cost-sharing expenses and other expenses unrelated to the NSF
projects. In addition, Cornell did not ensure the validity of cost sharing claimed by
subrecipients.

Cost-Sharing Accounts Not Linked to NSF Awards

        Cornell does not separately track cost sharing benefiting NSF's awards. In
addition, Cornell departments administering these awards do not establish unique cost-
sharing accounts or coding structures to specifically link the claimed cost-sharing to the
relevant NSF awards. Compounding this problem, Cornell's decentralized departmental
cost-sharing system utilizes multiple accounts for individual awards to track cost sharing.
Specifically, we found that the departments established a total of 35 separate project
accounts and claimed portions of the costs reflected in these multiple accounts as cost
sharing on the applicable NSF awards. For the five awards audited, we found the
following multiple accounts:

                                     No. of Accounts
               Award                 Not Linked to                  Claimed NSF
               Number                NSF Awards                     Cost Share

               ESI-9627280                   12                      $ 667,348
               ECS-9512186                   10                       1,339,202
               DBI-9512240                     6                        765,383
               ECS-9871026                     4                        498,666
               DBI-9512501                     3                        549,939
               Total                         3-5                     $3,820,538




                                            5
    To illustrate the various project accounts used to support cost sharing for one award only,
    DBI-9512240 had the following project accounts and account descriptions:

                             Account Number                        Account Description
                             125-3305                              Isotope Lab
                             125-8502                             Mellon Lab of NAIA
                             183-4300                             Budgeted Research
                             183-5300                             Budgeted Research
                             183-8108                             Income Research
                             183-8513                             Mellon Sub Acct 125-8502

        Within some of these project accounts Cornell commingled NSF cost sharing with
other costs, including direct-funded costs from other sources. For example, Cornell was
unable to support $581,808 of salaries and related fringe benefits and indirect costs it
claimed as cost sharing in awards ESI-9627280, DBI-9512501, and DBI-9512240.
Departmental records identified salary costs for institutional and departmental research
but did not contemporaneously certify the portion of such labor effort that was
specifically expended in support of the NSF awards. Without performing an audit of all
awards to the Cornell departments that managed the five NSF awards, we were unable to
determine the amount of cost sharing allocated to specific NSF awards, whether the
claimed cost sharing was reasonable, allocable, or allowable, or whether the departments
had double-counted cost-sharing by claiming the same cost sharing on both NSF awards
and other federal awards as well.

Insufficient Support for Subrecipient Cost Sharing

       OMB Circular A-110, Subpart C, section 51 (a), states:         "Recipients are
responsible for managing and monitoring each ... subaward. . . ." As guidance on this
requirement for subrecipient monitoring, The American Institute of Certified Public
Accountants (AICPA) Statement of Position 98-3 states: 5

                      If subrecipients have [an A-133] audit, the pass through entity's
                      receipt and review of the results of that audit . . . may be
                      sufficient to meet the subrecipient monitoring requirements of
                      Circular A-133. However, it is more likely that the receipt and
                      review of such audit results should be merely one tool that
                      should be used by the pass-through entity as part of a
                      comprehensive subrecipient-monitoring process.

Suggested additional monitoring procedures include "on-site visits, reviews of
documentation supporting requests for reimbursement, and limited-scope audits." 6



s AICPA, Statement of Position 98-3,
                                     Section 9.29.
6
    Ibid., section 9.28.




                                                     6
         Contrary to the requirements of OMB Circular A-110, Cornell did not have an
adequate process to monitor promised subrecipient cost sharing or to ensure that
subrecipients had met their cost-sharing obligations. Specifically, during our audit,
Cornell initially did not provide any certifications from subrecipients to support $682,497
of their cost sharing, including equipment provided by third parties. After our request for
additional support, Cornell did provide additional documentation, including copies of
some invoices for both subrecipient reimbursable costs as well as subrecipient cost
sharing; however, none of these invoices contained a certification statement applicable
to the claimed cost-sharing amounts.

        For example, under one award (ECS-9871026), Cornell claimed $376,676 of
subrecipient cost sharing, representing 76 percent of the total cost sharing required on this
award. Cornell claimed this cost sharing was primarily equipment costs: $200,000
provided by Stanford University (Stanford) and $132,000 provided by Pennsylvania State
University (Penn State). Another $44,676 of claimed Penn State cost sharing was
identified only as "Penn State Nanofab Facility." However, neither university ever
certified that these amounts represented its cost sharing or that its cost-sharing
requirement had been fulfilled. Although a document from Stanford stated that the
university had cost-shared $200,000 on the award, the document did not itemize the type
of cost sharing provided or contain a certification by Stanford that this amount met its
cost-sharing obligation. Penn State's documentation consisted of an e-mail message
dated around the time of initial audit work (October 10, 2000), showing its budgeted cost-
sharing amount of $176,676. Upon questioning, Cornell provided a copy of Penn State's
invoice to Cornell for reimbursement of direct costs; the invoice also included a note
stating: "Total Matching Funds 132,000," but did not itemize the type of cost sharing
provided or the associated dollar amount. The notation also did not assert that the
$132,000 of cost-sharing actually had been incurred, nor did it contain certification that
the claimed cost-sharing was in accordance with applicable federal cost principles. No
further Penn State support was provided for the additional $44,676.

        Similarly, on a second award (ECS-9512186), Cornell claimed $305,821,
23 percent of the required cost-sharing amount of the entire award, without adequate
support from the subrecipient, also Stanford. Cornell stated that this amount consisted of
$246,000 for equipment and $59,821 for salaries, fringe benefits, repair and maintenance,
and expendable materials and services. However, to support the equipment amount,
Cornell provided only a purchase requisition indicating that Stanford had purchased the
equipment from Lam Research at a price of $275,000 plus sales tax. 8 The requisition
also identified that Lam Research incurred, but did not charge, an additional $246,000 of
costs for work, parts, and a warranty on the equipment. Cornell reimbursed Stanford for


' Cornell provided these invoices as evidence to show that section 7 of its standard subcontract agreement
required subrecipients to certify its reimbursable costs as well as its cost sharing on each invoice.   For
further discussion of section 7, see footnote 15, supra.

8
 The Stanford purchase requisition stated that Lam Research sold for $275,000 a high density etch tool
valued at $658,000 with a discount of $137,000.




                                                     7
$275,000 and claimed the $246,000 difference as cost sharing. 9 Neither Stanford nor
Cornell provided any documentation to indicate how Lam Research arrived at its original
valuation of the equipment, or whether that valuation conformed to OMB Circular A- 110,
which requires that the basis for valuation of the equipment be documented, that the
value be determined in accordance with the usual accounting policies of the recipient, and
that the fair market value of equipment not be exceeded.' Further, Cornell had no
evidence (besides the purchase requisition) that the equipment had, in fact, been
purchased by Stanford and used on the NSF grant.

        Stanford's support for the $59,821 of salaries, fringe benefits, repair and
maintenance, and expendable materials and services was an "Expenditure Statement" for
the period 10/1/95 to 9/30/98. While this document detailed the amounts claimed as cost
sharing, the statement at the bottom indicated only that the salary and wage costs shown
were "reasonably accurate approximations of the work performed on this project;" and
although the Expenditure Statement contained a certification statement and signature
block, the PI had not signed this statement to attest to the validity and accuracy of these
claimed cost-sharing amounts.

Implications of Inadequate Cost-Sharing Controls

        The lack of adequate accounting controls over cost sharing at the department and
subrecipient levels resulted in our inability to determine if the $3.8 million Cornell
claimed as cost sharing on the five audited awards were allowable costs. Without being
able to determine whether the costs reflected in the accounts were specifically incurred
for the benefit of NSF awards and that the amounts were valued properly, we could not
substantiate the validity and accuracy of the cost-sharing amounts that Cornell claimed.
Accordingly, we have disclaimed a conclusion as to whether or not any of Cornell's $3.8
million cost sharing claimed on the five awards listed on the schedules in Appendix C, is
allowable, reasonable, and allocable in accordance with federal requirements.

        Inadequate accounting also resulted in inaccurate reporting of cost sharing and
frequent revisions of cost-sharing reports. Specifically, during the course of our audit,
Cornell revised its cost-sharing reports on four of five of the grants we were auditing.
For example, on award number DBI-9512240, a closed award, cost sharing reported for
travel and miscellaneous costs was higher, and for salaries was lower on 9/10/99 than
subsequently reported to us on 12/4/00. For award number DBI-9512501, also a closed
award, reported cost sharing for fringe benefits and equipment was lower, and for salaries
was higher on 9/28/98 than subsequently reported to us on 12/4/00. The variance in



9
 We contacted Lam Research to confirm this transaction was actually consummated and determine how the
company had determined that the value of the tool was $658,000, but Lam Research did not respond to our
inquiries.
1°
  OMB Circular A-110, Subpart C, section 23 (h) (2) states: "The value of donated equipment shall not
exceed the fair market value of equipment of the same age and condition at the time of donation."



                                                  8
equipment costs alone that was reported to us on this award (DBI-9512501) was
$171,834 ($219,352 reported on 9/28/98 and $391,186 reported on 12/4/00)."

        Additionally, because accounting control deficiencies may have allowed for
counting cost-sharing amounts more than once, NSF awards may be experiencing cost-
sharing shortfalls on its five awards. Cost sharing was supposed to be approximately 42
percent of the total budget for these five programs. Consequently, cost-sharing shortfalls
could have had detrimental effects on the science programs funded by these awards.
Further, to the extent that inadequacies in Cornell's decentralized departmental systems
for cost sharing on these audited awards are occurring in other Cornell departments, there
are potential implications beyond the departments included in this audit. Cornell may
have inaccurately reported and claimed cost-sharing amounts on its other 174 NSF
awards, for which it had promised more than $30 million of cost sharing.

Inadequate University Oversight

         We believe that Cornell's decentralized departmental systems for cost sharing and
the lack of oversight over these systems contributed to the problems identified during our
audit. While Cornell utilized a single account to track and manage the direct-funded
costs of each NSF award, it allowed departments to decide independently how to account
for its cost-sharing obligations. Each department established its own record-keeping
system, without Cornell's adequate oversight to ensure that these decentralized systems
supported cost-sharing obligations in accordance with federal and NSF requirements. As
a result, of the four departments covered by our audit, 12 none was able to support that the
cost sharing Cornell claimed was accurate or that it specifically benefited NSF's awards.
Had Cornell exercised adequate oversight of the departments' accounting processes, it
presumably would have identified the multiple accounts not linked to NSF awards, the
commingling of cost-sharing and other expenses in one account, and the insufficient
documentation used to support subrecipient cost sharing. Adequate oversight would also
have revealed that some of the annual cost-sharing reports were not submitted as
required, that some of the cost-sharing reports that were submitted were unsigned, and
that supporting documentation and equipment valuations were inadequate.

        Additionally, it does not appear that cost-sharing compliance was a sufficient
priority for the university. Cornell did not follow its own procedures and policies
regarding cost sharing. Specifically, Cornell's Policy 1.1 Cost Sharing, of March 1997,
stated:

                     To facilitate the accumulation and reporting of cost-sharing expenditures by
                     specific awards, unit administrators should track cost-sharing expenditures
                     by award in the cost-sharing account by use of separate accounts ...

                     The university effort distribution and certification process requires that all
                     effort directly associated with a sponsored project be classified consistently ....

1 1
      See Appendix C for details.
12
      One department managed two of the NSF awards.



                                                         9
        Cornell told us that it was concerned about the costs of implementing an
accounting system to separately track cost sharing attributed to NSF awards; and it was
not until after our audit began that Cornell informed us that it was planning to set up a
system to track cost sharing separately. In addition, Cornell indicated that it did not do
more to monitor subrecipient cost sharing, because it relied on "integrity-based systems,"
which it deemed to be sufficient.' 3

        Finally, Cornell was on notice from prior audits that it needed to monitor its
decentralized departmental cost-sharing system more effectively. Cornell's internal
auditors noted in a March 7, 2000, audit report that "[n]ot properly monitoring cost-
sharing and documenting and authorizing cost-transfers may increase the risk of errors in
charges made to sponsored projects." In a June 30, 2000, report, Cornell's internal
auditors noted that a department reported estimated, rather than actual, cost-sharing
contributions. Had Cornell heeded the findings of its internal auditors, it would have
strengthened its controls over cost-share accounting, and in particular, its oversight of the
system.

Recommendation

       We recommend that NSF's Directors of DGA and CPO ensure by a follow-up
review that Cornell has taken action to:

1) implement an accounting system that links the cost-sharing accounts with the project
    accounts benefiting from the cost sharing on each award,
2) support its cost-shared labor costs with certified after-the-fact labor distribution
    reports,
3) monitor departmental and subrecipient accounting for cost sharing, including
    periodic reviews and site visits to ensure the adequacy and completeness of
    departmental and subrecipient controls and processes for meeting federal and NSF
    cost-sharing requirements, and
4) revise its standard subrecipient agreement to require its subrecipients to account for,
    document, report, and certify their annual cost-sharing contributions to Cornell.

Based on the outcomes of the site visit, NSF should take appropriate action, including, if
necessary, withholding funds for any new awards with cost-sharing requirements to
Cornell until it has fully addressed all four recommendations.

Awardee Comments: Although Cornell disagrees that its departmental cost-sharing
system is inadequate and that it does not have adequate procedures for monitoring




                                             10
subrecipient cost sharing, it has agreed to take remedial action. It has stated that it will
add a new data field to the cost-sharing accounts to link the cost sharing to NSF awards
and will require subrecipients to certify on each invoice that claimed cost-sharing
expenses were actual expenses incurred for NSF awards. Regarding labor costs, Cornell
has stated that it would use labor distribution reports certified after-the-fact to support
cost-shared labor costs, but that it would continue to maintain its system of subsidiary
departmental records, which it thought provided adequate support for the distribution of
cost-shared labor costs to specific NSF awards.




        Regarding subrecipient monitoring, Cornell replies that following our fieldwork,
it implemented improved subrecipient monitoring procedures by updating subaward
procedures, modifying the standard subaward agreement to include a requirement for
subrecipients to include certifications on invoices, 14 and conducting departmental training
in the area of subrecipient monitoring.

Auditor Reply: If fully implemented, the addition of a data element in the general
ledger and the requirement that a subrecipient certify on each invoice that claimed cost
sharing expenses were actual costs incurred for specific NSF awards, would address two
of the conditions we reported. However, since cost-shared labor costs will be tied to NSF
awards by the new data element, our remaining concern is that labor distributions reports
with after-the-fact certifications support these costs. If Cornell does utilize these certified
labor distribution reports, it should not need to continue to rely on departm ental records.
Thus, the university's expressed intention to maintain such departmental records suggests
that its certified labor distribution reports may not support cost-sharing amounts.
Therefore, we continue to recommend that NSF Directors of CPO and DGA verify the
implementation and adequacy of Cornell's purported changes and determine whether or
not Cornell has implemented certifications of labor distribution reports to support
claimed cost sharing of labor costs.
14
     According to Cornell, the language in the standard subaward agreement now reads:

                      An authorized representative of the Subcontractor shall certify on each invoice
                      that the costs, including those requested for reimbursement and those shown as
                      the Subcontractor's share, are actual costs as recorded in Subcontractor's
                      records and as expended for the work actually performed in accordance with
                      the terms of this Agreement.


                                                      11
        Regarding the review process that Cornell states that it uses to oversee cost
sharing, Cornell did not provide us with evidence of reviews of cost-sharing reports the
Sponsored Funds Accounting Office purportedly undertook before submission of the
reports to NSF. In fact, as we discuss below, prior to our audit Cornell had not submitted
the required cost-sharing reports. Cornell also did not provide evidence of reviews by the
indirect cost department. Both kinds of reviews, if properly implemented, would
strengthen Cornell's internal controls over cost sharing. However, had the reviews been
as thorough and accurate as they were portrayed, they would have detected the
inadequacies in departmental and subrecipient reporting of cost sharing.




         Regarding subrecipient monitoring, we acknowledge the changes Cornell states
that it has implemented. Such modifications should strengthen Cornell's internal controls
over subrecipient cost sharing. However, to evaluate these changes, we reiterate our
recommendation that the NSF Directors of DGA and CPO ensure by follow up review
that Cornell has, in fact, implemented adequate procedures to monitor subrecipient
accounting for cost sharing, and has revised its standard subrecipient agreement to
require subrecipients to account for, document, report, and certify their annual cost-
sharing contributions to Cornell.

CORNELL IS NOT SUBMITTING ADEQUATE ANNUAL
CERTIFIED COST-SHARING REPORTS TO NSF

NSF's Grant Policy Manual, Section 33.6 b, states:

              . . . [I]n cases where grantee cost sharing commitments are
              $500,000 or more, the grant instrument will require as a
              condition of the grant, the Authorized Organizational
              Representative to report and certify the amount of cost sharing
              on an annual and cumulative basis. These cost sharing reports
              shall be included as part of the annual progress and final
              project reports.




                                            12
        Prior to our audit, Cornell had not submitted the annual cost-sharing reports with
the required certification to NSF for the five awards we reviewed. We notified Cornell of
our planned audit in July 2000. At that point in time, Cornell should have submitted a
total of 14 cost-sharing reports under the five grants within the audit's scope. However,
Cornell only produced three cost-sharing reports that were dated prior to August 2000;
and we could not verify that any of these three reports had been submitted to NSF.
Following commencement of our audit, Cornell did submit cost-sharing reports for the
five grants. However, while four of the five reports were signed by departmental
personnel, they contained no assertion of what the signatures represented or that the
amounts reported were in conformance with NSF requirements or Cornell's policy. The
cost-sharing report for the fifth award was neither signed nor contained a certification
statement or assertions about the integrity and accuracy of the report's contents.

         Cornell's failure to submit the required certifications reduces NSF's assurance
that cost-sharing requirements are being met. In addition, because the certifications
Cornell finally supplied did not indicate whether the amounts listed conformed to NSF or
federal requirements, it was not clear what the certifications actually represented.
Although the Grant Policy Manual does not state explicitly that attestations of
compliance with NSF cost-sharing requirements accompany cost-sharing certifications,
such attached explanations would provide NSF with more assurance that the cost-sharing
certifications are complete and accurate.

         Cornell did not submit required annual cost-sharing reports because it did not
adequately monitor the departments' tracking of cost sharing, and thus did not realize
when they had not submitted the required cost-sharing information. In one case the
administering department did not know there was a cost-sharing requirement until after
the award ended. Further, Cornell personnel indicated that they did not certify the cost-
sharing reports because they believed signing the reports was the equivalent of a
certification. They asserted that "signed" and "certified" are synonymous terms.
Nevertheless, during our audit, Cornell submitted to NSF certified cost-sharing reports
for all five of the awards. In addition, Cornell initiated corrective actions based on the
recommendations we made at the conclusion of the survey phase of this audit, and prior
to the commencement of audit fieldwork in December 2000. On December 1, 2000,
Cornell's Division of Financial Affairs issued a memorandum to department accounting
personnel on preparing and transmitting standardized Cost Share Report forms. The
form includes the following certification language:

       This is to certify that, to the best of my knowledge and belief, all cost-
       sharing expenditures:

       1. Are verifiable from University records.
       2. Are not included as contributions for any other federally-assisted
          project or program.
       3. Are necessary and reasonable for proper accomplishment of the
          project.
       4. Are allowable under the applicable cost principles.



                                           13
       5.   Are not paid for by the Federal Government under another award,
            except where authorized by Federal statute to be used as cost sharing
            or matching.

Recommendation

         We recommend that NSF's Directors of DGA and CPO ensure by follow-up
review that Cornell takes action to both develop and implement policies and procedures
to certify cost sharing on all awards with $500,000 or more in mandatory cost sharing and
to submit these certifications as part of the annual progress and final project reports.
Although not explicitly required by the Grant Policy Manual, we believe that best
practices require Cornell to certify amounts by line items, and to state in the certifications
that the amounts reported conform to NSF requirements and federal cost principles.

Awardee Comments: Cornell disagrees with this finding, asserting that the certification
on its Federal Cash Transactions Report meets the cost-sharing reporting requirements of
NSF's Grant Policy Manual. Although Cornell disagrees that a certification in addition
to a signature is required on the cost-sharing reports, the university has added
certification language to its cost-sharing reports.

Auditor Reply: We disagree with Cornell's assertion that a certification on Federal
Cash Transaction Reports meets the requirements for certified annual cost share reports,
since that certification does not list any annual or cumulative cost-sharing amounts, as
required by NSF's Grant Policy Manual. Therefore we reaffirm our recommendation.




                                              14
15
                                                                                   APPENDIX A

                                  Awards Included in This Audit

                                                         Cost-
                                      Award             Sharing
  Grant No.    Effective Dates        Amount            Amount                Grant Purpose
DBI-9512240   8/15/95 - 7/31/99        $750,000          $750,000   Acquisition of Mass Spectrometers
                                                                    for the Cornell Laboratory for
                                                                    Natural Abundance Isotope
                                                                    Analysis

ESI-9627280   8/1/96 - 7/31/01       $1,305,765         $756,170    Cornell Nestbox Network

ECS-9512186   10/1/95 - 9/30/98      $1,294,352        $1,256,000   Acquisition of Nanofabrication
                                                                    Instrumentation to Enhance the
                                                                    Effectiveness and Efficiency of the
                                                                    National Nanofabrication Users
                                                                    Network

DBI-9512501   8/15/95 - 7/31/98        $400,000         $527,830    Acquisition of a 500 MHz NMR
                                                                    Spectrometer for Structural
                                                                    Analysis of Biological
                                                                    Macromolecules

ECS-9871026   9/1/98 - 8/31/01        $466,100          $543,960    MRI: Nanofabrication Equipment
                                                                    to Support MEMS Research

Total                                $4,216,217        $3,833,960




                                                  16
	




                                                                                APPENDIX B

               TEXT OF MANAGEMENT REPRESENTATIONS REQUESTED
                             BUT NOT PROVIDED


                                  Cornell University Letterhead


                                                       June 1, 2001

    Cotton & Company
    333 North Fairfax Street
    Suite 401
    Alexandria, Virginia 22314

           This confirmation is in connection with your audit of cost sharing incurred under
    National Science Foundation (NSF) Agreements DBI-9512240, ESI-9627280, ECS-
    9512186, DBI-9512501, and ECS-9871026. We understand that this audit is being
    performed to (a) determine if all cost share expenses claimed under these agreements are
    supported, reasonable, and allowable in accordance with the terms and conditions of the
    basic agreements, general conditions, agreement scopes of work, and all applicable
    Federal cost principles and administrative requirements; and (b) identify any control
    weaknesses regarding the accounting for and reporting of cost share commitments.
    Accordingly, we confirm, to the best of our knowledge and belief, the following
    representations made to you during your examination:

    1.    We are responsible for all receipts and disbursements of funds under the terms of
          the agreements and also for accurately reporting the aforementioned to NSF.

    2.    We have made available to you all financial records and related data, including
          correspondence and memorandums, that support costs claimed and cost-shared
          amounts under the agreements.

    3. There have been no:

          a.    Irregularities involving management or employees who have significant roles
                in the system of internal accounting control related to cost share accounting
                and reporting.

         b.     Irregularities involving other employees or subcontractors that could have a
                material effect on the financial reports or invoices submitted related to cost
                share accounting and reporting.

         c.     Communications from NSF or other regulatory agencies concerning
                noncompliance with agreement terms or financial reporting practices related


                                                17
	




                 to cost share accounting and reporting.

    4.    We are responsible for compliance with all applicable laws and regulations.

    5.    We have identified and disclosed to you all laws and regulations that have a
          material effect on the determination of financial statement amounts for all costs
          related to cost share accounting and reporting.

    6.    We know of no violations or possible violations of laws or regulations related to
          cost share accounting and reporting whose effects should be considered for
          disclosure.

    7.    No unasserted claims, liabilities (contingent or otherwise), or assessments exist that
          are probable of assertion and should be disclosed.

    8.    All material transactions (actual or expected) for all costs have been properly re-
          corded in the accounting records related to cost share accounting and reporting.

    9.    We have complied with all aspects of the agreements related to cost share
          accounting and reporting.

    10.   Our procedures for accounting for and reporting costs related to cost share
          accounting and for preparing cost share reports under the agreements have not
          deviated from the procedures we follow for other similar agreements we have with
          other State and Federal agencies or other nongovernmental donors.

    11.   The accounting system modification being implemented now and expected to be
          completed in June 2001 related to an OSP number attribute being added to account
          numbers will enable Cornell to identify all costs related to grants (including cost-
          shared amounts) and will effectively preclude cost-shared amounts from being
          claimed as cost share under more than one Federal grant.

           No events have occurred subsequent to the dates of submission of the most recent
    cost share reports under these agreements that would require adjustment to, or disclosure
    in, these cost share reports.




                                                 18
	




                                                                             Appendix C-1

                 National Science Foundation Grant Number ECS-9512186
                                       Awarded to
                                    Cornell University

                                  Schedule of Cost Sharing
                    For the Period October 1, 1995 to September 30, 1998
                                           Final

                                                               Amount          Amount
                                              Amount           Claimed         Claimed
               Cost Category                 Budgeted           (09/99)         (12/00)
      Equipment                              $       0        $1,033,381      $1,033,381
      Subcontracts:
       Stanford University (Equipment)                0          246,000         246,000
       Stanford University (Others)                   0           59,821          59,821
                             Total Costs     $1,256,000          339,202      $1,339,202
                                                 (a)

    (a) According to the original award letter dated September 14, 1995, Cornell University
       was required to cost share $2,357,500. However, Amendment Number One dated
       July 8, 1999 reduced the cost-sharing requirement to $1,256,000. The documents
       obtained from NSF do not contain a budget breakdown of the cost-sharing amount.




                                              19
                                                                           Appendix C-2

              National Science Foundation Grant Number DBI-9512240
                                    Awarded to
                                 Cornell University

                              Schedule of Cost Sharing
                 For the Period August 15, 1995 to December 4, 2000
                                        Final

                                                             Amount          Amount
                                            Amount           Claimed         Claimed
                Cost Category               Budgeted        (09/10/99)      (12/04/00)
      Salaries & Wages (a)                   $246,648        $149,596        $167,605
      Fringe Benefits                          51,206           52,703          52,507
      Equipment (Mass Spectrometer)           416,722          171,061         171,061
      Liquid Argon/Nitrogen Tanks                8,835               0               0
      Materials & Supplies                     26,589          123,572         123,572
      Travel                                         0           4,220           2,432
      Miscellaneous (Other)                          0          39,108          30,524
      Facilities & Admin.                            0         209,741        217,682
                           Total Costs       $750,000        $750,001        $765,383
                                               (b)

(a) The salaries and wages include salaries for graduate students, undergraduate students,
    and a facilities manager.

(b) According to award letter dated August 3, 1995, Cornell University is required to cost
    share $750,000.




                                            20
                                                                         Appendix C-3

             National Science Foundation Grant Number DBI-9512501
                                   Awarded to
                                Cornell University

                              Schedule of Cost Sharing
                 For the Period August 15, 1995 to December 4, 2000
                                       Final

                                                     Amount           Amount
                                     Amount          Claimed          Claimed
            Cost Category            Budgeted       (09/28/98)       (12/04/00)
       Salaries & Wages               $ 93,648       $ 76,652          $ 61,607
       Fringe Benefits                  34,182          14,111            19,449
       Equipment                       400,000        219,352           391,186
       Materials & Supplies                  0           3,294                  0
       Tuition                               0               0            23,568
       Facilities & Admin.                   0          40,032            54,128
                     Total Costs      $527.83"       $353,441          $549,939
                                        (a)

(a) According to the original award letter dated August 19, 1995, Cornell University was
    required to cost share $527,830.




                                          21
                                                                       Appendix C-4

             National Science Foundation Grant Number ESI-9627280
                                   Awarded to
                                Cornell University

                             Schedule of Cost Sharing
                For the Period August 1, 1996 to December 7, 2000
                                     Interim

                                                           Amount        Amount
                                             Amount        Claimed       Claimed
                Cost Category                Budgeted     (08/10/00)    (12/07/00)
      Salaries & Wages                        $285,488     $294,208      $294,208
      Fringe Benefits                           84,284        98,790        89,937
      Ambassadors                               27,000             0             0
      Recruitment                               19,000             0             0
      Travel                                    16,750             0         4,316
      Materials & Supplies                      21,000             0             0
      Publication Costs/Page Charges            61,000             0             0
      Miscellaneous (Other)                     24,750        35,138        30,821
      Facilities & Admin.                      216,898      257,220       248,066
                          Total Costs         $756,.110    $685,355      $667,349
                                                (a)

(a) According to the original award letter dated August 29, 1996, and Amendment
   Number One dated September 9, 1998, Cornell University was required to cost share
   $756,170 over four years.




                                        22
	




                                                                                Appendix C-5

                  National Science Foundation Grant Number ECS-9871026
                                        Awarded to
                                     Cornell University

                                  Schedule of Cost Sharing
                   For the Period September 1, 1998 to November 30, 2000
                                          Interim

                                                                  Amount          Amount
                                                 Amount           Claimed         Claimed
                    Cost Category                Budgeted        (08/15/00)      (11/30/00)
           Equipment                              $         0      $149,822        $121,990
           Subcontracts:                                    0
            Pennsylvania State University                   0             0         176,676
            Stanford University                             0             0         200,000
                              Total Costs            $543,960      $149,822        $498,666
                                                       (a)                           (b)


    (a) According to the original award letter dated September 8, 1998, Cornell University
        was required to cost share $536,000 in unspecified categories. An amendment in
        September 2000 required additional cost share of $7,960, also in unspecified
        categories.

    (b) An exact breakdown of the $498,666 on Cornell's November 11, 2000 cost share
        report is unclear. Cornell records indicate $122,440 of equipment costs; and, as
        described in this report, support for the $176,676 and $200,000 of subcontract costs
        was inadequate.




                                                23
                        Appendix D




 Cornell University's
Verbatim Response to
 Draft Audit Report
                                                                                APPENDIX E

                   Summary of Auditor's Reply to Cornell Response

        A draft of our audit report was sent to Cornell on March 1, 2002, and Cornell
provided a detailed response to the draft report on March 26, 2002. This response is
reprinted in its entirety in Appendix D. Cornell's response makes several general
comments about the audit report and the way the audit was conducted and also comments
on each specific fording. In the text of this audit report we have included a synopsis of
Cornell's comments on the findings, along with our responses. Cornell disagreed with
our findings; but, as we have previously discussed, asserted that it has implemented
corrective actions to rectify them.

        Most of Cornell's general comments do not warrant a response. However,
Cornell states that our findings are based on "four erroneous assumptions." Because
Cornell's assertions regarding these "assumptions" appear to be the foundation for
Cornell's comments on specific findings, and because Cornell's assertions misstate our
position, we provide brief responses to these incorrect assertions.

       Cornell's response states:

       Cotton & Company based its findings of [sic] our five NSF cost-sharing
       awards on the following four erroneous assumptions:

           •   It is not possible to decentralize responsibility and maintain
               adequate internal control;
           •   Documentation requirements for expenses reported to
               cover the cost-share commitment (unreimbursed expenses)
               are greater that the documentation requirements for
               reimbursed expenses;
           •   A certification is only valid if it attests to every possible
               condition; and
           •   The prime recipient must maintain sub-recipient
               documentation.

         We have never stated that decentralized responsibility makes it impossible to
maintain adequate internal control. Our position has been and continues to be that
Cornell's decentralized system for accounting for cost sharing lacks adequate internal
control.

        We have never stated that cost-sharing documentation or accounting requirements
are greater than documentation or accounting requirements for reimbursed expenses. Our
position has been and continues to be that the documentation and accounting
requirements are the same and that Cornell's system treats them differently.

       We have never stated that a cost-sharing certification is only valid if it attests to
every possible condition. Our position has been and continues to be that cost-sharing
certifications should comply with the requirements of OMB Circular A-110, Subpart C,
section 23 (a) (meet seven listed criteria for allowable cost sharing) and the NSF Grant
Policy Manual (certify the amount of cost sharing on an annual and cumulative basis).

       We have never stated that a prime recipient must maintain sub-recipient
documentation. Our position has been and continues to be that prime recipients must
employ a comprehensive sub-recipient monitoring process designed to assure that
claimed sub-recipient costs are reasonable, allowable, allocable, and adequately
supported. Cornell had no such process.
March 26, 2002

Ms. Christine Boesz
Inspector General
National Science Foundation
4201 Wilson Boulevard Suite
1135
Arlington, Virginia 2 2 2 3 0

Dear Ms. Boesz:




                                                                                             th
Fieldwork for the actual audit of amounts cost shared on five awards began on December   4
2000 and continued through December 2 1 st of that year. Three days into the audit,
We believe that the attached responses appropriately and effectively refute the audit
"findings." Our books and records are open to any NSF staff member who wishes to
confirm the status of our systems.

Because the differences between Cornell and the outside auditor's report are so great, we
should meet as rapidly as possible to discuss how to resolve these differences. I will contact
you next week to set up an appointment. We look forward to working directly with you, the
Division of Grants and Agreements and the Division of Contracts, Policy and Oversight to
satisfy NSF that Cornell is fully compliant with NSF guidelines and that our programs are
accurately reported. Clearly, NSF's continued support of our distinguished faculty and their
many research projects now in progress is critical to the research mission of this institution and
promotes the public benefit.
Cornell Management
     Response
Cotton and Company based its findings of our five NSF cost-sharing awards on the
following four erroneous assumptions:

       •
       •
           It is not possible to decentralize responsibility and maintain adequate internal control;
           Documentation requirements for expenses reported to cover the cost-share commitment
           (unreimbursed expenses) are greater than the documentation requirements for

       •
           reimbursed expenses;

       •
           A certification is only valid if it attests to every possible condition; and
           The prime recipient must maintain sub-recipient documentation.




                                                                                           1
 Cost-sharing Accounts Not Linked to NSF Awards:,
Comment: Cornell does not track separately cost sharing that benefits NSF awards.
Cornell's decentralized cost-sharing system utilizes multiple accounts for its awards to
track cost sharing.




Example cited in audit report:
DBI-9512240, Come]] account number 125-8327, had six project accounts as illustrated in the
audit report. These accounts were necessary because the cost-sharing obligation was met
by multiple fund sources as follows:

        • 125-3305 is an institutionally funded account.
        • 125-8502 is funding from the Mellon Foundation.
        • Accounts 183-4300 and 183-5300 are NYS appropriated accounts. Because there is an
          overlap of spending authority on fiscal year appropriated funds, the university establishes two
          accounts for NYS appropriations. Dept 183-4300 signifies even-year appropriated funds;

        • 183-8108 was established to record investment income earnings from an endowment account
          Dept 183-5300 signifies odd-year appropriations.

        • 183-8513 is a sub-account in department 183 of the above-mentioned Mellon Foundation
          award.

Cornell agreed to add a data field to the cost-share accounts to identify the associated
award account; however, this does not mean that the university will have fewer cost--
sharing accounts for each sponsored award.




                                                                                              2
certified as part of the annual plan-confirmation process. OMB Circular A21 section J.8.2
states that the criteria for acceptable methods of payroll distribution are the following:

        (a) The payroll system will (i) be incorporated into the official records of the
            institution, (ii) reasonably reflect the activity for which the employee is
            compensated by the institution, and (iii) encompass both sponsored and all other
            activities in an integrated basis, but may include the use of subsidiary records.

For cost-sharing expenses, to the extent that the account is able to be unique, the entire effort
is associated with the sponsored project. For state-appropriated accounts or university-
appropriated accounts, a department's subsidiary system for identifying the costs to specific
projects may be required. Documentation to support the subsidiary records and to assure
expenses were not double counted was provided to Cotton and Company auditors when they
conducted their interviews. The indirect cost department reviews the records, at least
annually, and training sessions are conducted several times per year in the research-intensive
areas to educate the units on the documentation requirements. In addition, Cotton and
Company auditors, along with central university staff, interviewed many of the people
whose salaries were considered part of the cost-sharing commitment and no questionable
amounts of efforts were identified.


Insufficient Support for Subrecipient Cost Sharing:
Comment: Cornell did not have sufficient documentation, and in some cases, did not have any
documentation to support $682,497 of subrecipient cost-sharing requirements.

Management Response: Management believes that there is adequate documentation to
substantiate the $682,497 reported as subrecipient cost sharing. In subaward relationships, the
subrecipients become the grantees; therefore, the records and supporting documentation for
these awards are required to be maintained at the subrecipients' places of business and are not
required to be submitted to Corn ell, as the primary recipient. Recognizing that we have an
oversight responsibility to ensure accountability at the subrecipient level, we do, prior to
issuing subawards, perform a risk assessment of the subrecipients' ability to maintain records
and monitor federal funds by establishing subrecipient profiles.

The profiles verify that subrecipients have the appropriate control systems in place to
.monitor and account for the receipt of federal funds. In all cases related to this audit, the
subrecipients did have documentation to support their ability to independently monitor federal
funds based on their OMB Circular A 133 audits. We have on file a copy of their audit reports
(or certifications) for all of the years covered by these awards. No findings related to these
awards are noted.

In addition, prior to issuing subawards, a cost and pricing analysis (Section 45 of A 110) is
documented in the files. Cost-sharing commitments are included in this analysis. In all three
cases cited in this report, the cost and pricing analysis examination determined reasonableness,
allowability, allocability and necessity to the proposed project. Subawards are then issued. The
subaward document itself requires the subrecipient to be

                                                                                                3
in compliance with A2 1, the Federal Demonstration Partnership (FDP) terms and
conditions and NSF Agency Specifics (or the NSF Grant General Conditions) and A 133.




The report also claimed that adequate certifications were not obtained. The NSF terms and
conditions state that the cost-share report must be "certified," but there is no certification
language required in the corresponding document. There are several instances when the NSF
requires specific certifications. In these cases it provides the required certifications, verbatim,
in its terms and conditions. Without such specificity, our presumption is that Cornell has the
option to certify subrecipients through appropriate means. Cornell maintains that its means
were and are adequate.

The report states, "They also told us that for monitoring subrecipients' cost sharing they
relied on 'integrity-based systems', which they thought were adequate." Elsewhere the
report states, "In addition, Cornell indicated that it did not monitor subrecipient cost sharing
adequately because it relied on 'integrity-based systems,' which it deemed to be sufficient."
These statements are not an accurate reflection of the interview. The interview was
primarily a discussion of what constitutes "certification. Additionally, the interview did not
include a statement from Cornell indicating that it did not adequately monitor subrecipients.
We believe that the grant terms and conditions are not clear about how one obtains
confirmation from a subrecipient; therefore, in our judgment, email verifications coupled with
the information in the technical reports and invoices were adequate.

We believe that our policies and procedures are adequate for monitoring subrecipients. At the
same time, we work in an environment of continuous improvement, and we strive to make a
good system better. In the spirit of what the audit process is intended to be, we felt that we
should incorporate Cotton and Company's suggested modification to our standard
subaward agreement. The language now reads:

        "An authorized representative of the Subcontractor shall certify on each invoice that the
        costs, including those requested for reimbursement and those shown as the Subcontractor's
        share, are the actual costs as recorded in Subcontractor's records and as expended for the
        work actually performed in accordance with the terms of this Agreement."

This change was incorporated on December 8, 2001 for all newly issued subcontracts; all
pre-existing subcontracts have been amended to include the new language. In addition, we
have updated our subaward procedures and have conducted departmental trainings in the area
of subrecipient monitoring. The introduction of electronic research administration has
brought about many process changes. And, it is worth noting that the
                                                                                                4
NSF has been in the forefront of this effort for several years. Given these changes in our shared
business environment, Cornell suggests that the NSF address and clarify what methods of
communication may be used to satisfy the requirements associated with the administration of
subawards.

Cornell maintains that the issues in this report related to subrecipients are based on differences
in interpretation of the appropriate regulations and grant terms and conditions. Cornell does not
believe that there is any question as to whether or not the subrecipients have satisfied their cost-
sharing obligations.


Implications of Inadequate Cost-Sharing Controls:.
Comment: The lack of adequate accounting controls over cost-sharing at the department and
subrecipient levels resulted in our inability to determine if the $3.8 million Cornell claimed as
cost-sharing on the five audited awards were allowable costs.

Management Response: Management strongly disagrees with this statement. Non-salary cost-
shared expenses are reviewed to determine allowability and allocability in the central finance
office. Cotton and Company reviewed these documents. Purchasing procedures are followed
to ensure appropriate valuation of our procured goods or services. Cotton and Company
auditors reviewed over 1,000 transactions associated with the five awards as part of this audit,
and no costs were determined to be unallowable.

Effort that is committed in the NSF proposal is reported through the financial systems and
verified through the effort certification system. If there was an issue with valuation of this
effort, it was not expressed by the auditors. If NSF feels that there is a difference between the
value of the effort received versus what was promised in the award agreement, the NSF
program staff should provide Cornell with feedback regarding that difference.




                                                                                                    .5
Cornell has often exceeded its cost-sharing obligations. We have typically reported only
amounts up to the cost-sharing commitment. Based on the audit report, we are changing
our policies and instructing Principal Investigators 1) to promise cost sharing only when
required, and 2) in the future, to incur cost-sharing expenses only up to the amounts
promised.


 Inadequate University Oversight:
 Comment: We believe that Cornell's decentralized departmental systems for cost sharing
and the lack of oversight over these systems contributed to the problems identified during
our audit.

Management Response: Management strongly disagrees with this statement. All
expenditures are reported in an institutional accounting system. Departments do not have
their own accounting systems. In certain cases, departments may use a subsidiary system
to record cost-sharing details further: Generally, this is necessary for salary recording,
particularly in order to meet our New York State reporting requirements. OMB A21 allows
this type of subsidiary record and does not require it to be an automated system.

As stated previously, purchases of goods and services follow our established purchasing
policies, as required by OMB Circular Al 10; effort policies are based on OMB Circular A2 1.
Central accounting staff members review transactions for accuracy and allowability. In
addition, we have compensating controls in place whereby our internal auditors perform
cost-sharing reviews as part of their unit audits, and our indirect cost staff members
review cost sharing on an annual basis.

As previously stated, all departmental expenses are included in the central accounting system.
The only decentralized responsibility that a departmental representative may have is to
track the specific projects for each faculty member, because the funding may be from multiple
sources. Depending on the volume of research performed, tracking in a department with
multiple awards may be more elaborate than in a department with only one award. There are
governing university policies in place, and central staff members meet regularly with
department personnel to discuss documentation requirements and to provide training.

Finally, all agency financial reporting goes through the central Sponsored Funds Accounting
Office. Departments may prepare the cost-sharing report and certify its accuracy;
however, the reports must pass the review of the responsible individual within Sponsored
Funds Accounting before they can be submitted to the agency. Given the size of Cornell,
we strongly believe that this process enhances our controls. We require a certification by
the responsible individual closest to the project; and, additionally, we have a central
oversight function.

Central staff members accompanied Cotton and Company auditors to the departmental
interviews when the departmental records were reviewed. There was not one instance
when Cotton and Company left the department claiming the costs or levels of effort claimed
were unsupported. Manual systems are not prohibited by federal regulations, and the
departments were able to provide adequate records to support their claimed costs.
NSF Agency specifics under the Federal Demonstration Partnership, "Other Additional

                                                                                             6
Requirements," No. 2 - Cost Sharing and Cost-Sharing Records, Article C Cost-Sharing
Records states that "the grantee must maintain records of all project costs that are claimed by
the grantee as cost sharing as well as records of cost to be paid by the Government. Such
records are subject to audit". Nowhere does it specify where or by what method the
 records must be maintained.

Nonetheless, we were willing to further enhance our systems by creating a new data field in.
our general ledger. This field will allow us to identify the specific NSF project related to the
cost shared expenses. Programming for the new field was complete in June 2001. From now
on, all mandatory cost-sharing accounts will be managed in separate accounts with the new
attribute field populated. This means that unless 100% of another account is claimed as cost
sharing, we will create a new account. However, the auditor's assertion that Cornell does not
need 35 cost-sharing accounts, as stated in the "costsharing accounts not linked to NSF
awards" comment, is untrue. We will be required to establish up to 35 additional accounts in
order to track the sources of funding properly.




Cornell Is Not Submitting Adequate Annual Certified Cost-Sharing Reports to
NSF:
Comment: Cornell has not submitted the annual cost-sharing reports with the required
certification to NSF for the five awards we reviewed.

Management does not concur with this finding. Cornell University is required by the
National Science Foundation to certify to agency-stipulated attestations upon submission of
its quarterly NSF Federal Cash Transactions Report:
                NSF Federal Cash Transactions Report

                Certification

                I certify:
                (A) That to the best of my knowledge and belief, this report is true in all
                respects and that, all disbursements have been made for the purposes and
                conditions (including cost-sharing requirements as stated In the NSF grant
                policy manual) of the awards---



Management firmly believes that the language, contained in paragraph (A) of the
certification meets the cost-sharing reporting requirements of Section 333.6.b of NSF's
Grant Policy Manual.

                                                                                               7
Grantee Reports. Unless otherwise required by the grant Instrument
or requested by NSF, the actual cost participation by the grantee need
not be reported to NSF. However, in cases where grantee cost
sharing commitments are $500,000 or more, the grant instrument
will require as a condition of the grant, the Authorized Organizational
Representative to report and certify the amount of cost sharing
on an annual and cumulative basis. These cost sharing reports shall be
Included as part of the annual progress and final project reports.




                                                                          8
	




    As for              characterization of his request to the external auditor during his audit, he
    makes it appear that                                                          M
                                                        was unresponsive. In truth,
            fails to mention that a         representative contacted the NSF OIG's office in August
    2001 to offer to facilitate a meeting between the NSF OIG and the national CPA firms to
    discuss perceived A133 audit issues related to cost sharing. The NSF OIG did not respond to
    this offer.

     Conclusion:
                 took 18 months to review five awards. His recommendations attempt to modify
    our accounting systems in ways that are not required by regulations. He has effectively
    rewritten NSF's certification language as well as OMB Circular A21 and A110
    documentation requirements. He failed to audit based on existing regulations. There were
    no findings that any of our costs claimed as cost sharing were over-stated.




                                                                                                 9
